   June 17, 2003




Defense Infrastructure


Department of Defense Policies
and Procedures to Implement the
Rural Development Act of 1972
(D-2003-104)




              Department of Defense
          Office of the Inspector General

Quality              Integrity        Accountability
Additional Copies

To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/audit/reports or
contact the Secondary Reports Distribution Unit of the Audit Followup and
Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
identity of each writer and caller is fully protected.
          Office of the Inspector General of the Department of Defense
Report No. D-2003-104                                                                    June 17, 2003
   (Project No. D2003CK-0092)

      Department of Defense Policies and Procedures to Implement
                 the Rural Development Act of 1972

                                     Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for real property acquisition and management should read this report because
the report discusses statutory requirements for giving first priority to the location of new
offices and other facilities in rural areas.

Background. The audit was conducted in response to Public Law 108-7, “Consolidated
Appropriations Resolution FY 2003,” February 20, 2003, which states:
           Not later than 6 months after the date of enactment of this Act, the Inspector
           General of each applicable department or agency shall submit to the Committee
           on Appropriations a report detailing what policies and procedures are in place
           for each department or agency to give first priority to the location of new offices
           and other facilities in rural areas, as directed by the Rural Development Act
           of 1972.

Results. DoD had established policies for implementing the requirements of the Rural
Development Act of 1972; however, with the exception of the Air Force, DoD had not
established procedures that would specifically give first priority to the location of new
offices and other facilities in rural areas. As a result, rural areas may be overlooked
during the relocation of new offices and other facilities. Army and Navy regulations
governing real property acquisition were under revision and included draft procedures for
implementing Rural Development Act requirements. Revising DoD regulations to
specifically reflect the requirements of the Rural Development Act of 1972 will result in
additional assurance that DoD meets the intent of the Act. (See the Finding section of the
report for detailed recommendations.)

Management Comments. The Principal Assistant Deputy Under Secretary of Defense
(Installations and Environment) concurred with the recommendation and had initiated
action to revise the applicable guidance. (See the Finding section for the complete
discussion of management actions.)
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                1

Finding
     Policies and Procedures of the Rural Development Act of 1972         2

Appendixes
     A. Scope and Methodology                                             5
         Prior Coverage                                                   6
     B. Report Distribution                                               7

Management Comments
     Office of the Deputy Under Secretary of Defense (Installations and
        Environment)                                                      9
Background
    This audit was performed in response to Public Law 108-7, “Consolidated
    Appropriations Resolution FY 2003,” section 638, February 20, 2003. Public
    Law 108-7 states:
               Not later than 6 months after the date of enactment of this Act, the
               Inspector General of each applicable department or agency shall submit
               to the Committee on Appropriations a report detailing what policies
               and procedures are in place for each department or agency to give first
               priority to the location of new offices and other facilities in rural areas,
               as directed by the Rural Development Act of 1972.



Objectives
    The overall objective was to determine whether DoD had policies and procedures
    that implement the requirements of the Rural Development Act of 1972.
    Specifically, we determined whether DoD Components and Military Departments
    had policies and procedures in place that would give first priority to the location
    of new offices and other facilities in rural areas. We did not review the
    management control program as it related to the overall objective because of time
    constraints associated with submitting the report within the congressionally
    mandated 6-month time frame. See Appendix A for a discussion of the scope,
    methodology, and prior audit coverage related to the objective.




                                               1
            Policies and Procedures of the Rural
                Development Act of 1972
            DoD had established policies for implementing the requirements of the
            Rural Development Act of 1972; however, with the exception of the Air
            Force, DoD had not established procedures that would specifically give
            first priority to the location of new offices and other facilities in rural
            areas. That condition occurred because the Office of the Secretary of
            Defense, the Army, and the Navy had not made implementation of Rural
            Development Act requirements a priority. As a result, rural areas may be
            overlooked during relocation of new offices and other facilities. Army
            and Navy regulations governing real property acquisition were under
            revision and included draft procedures for implementing Rural
            Development Act requirements. Revising DoD guidance to specifically
            reflect the requirements of the Rural Development Act of 1972 will result
            in additional assurance that DoD meets the intent of the Act.


Criteria
     Public Law 92-419, “Rural Development Act,” section 601, August 30, 1972.
     Public Law 92-419 states:
                Congress hereby directs the heads of all executive departments and
                agencies of the Government to establish and maintain departmental
                policies and procedures giving first priority to the location of new
                offices and other facilities in rural areas as defined in the private
                business enterprise exception in section 306 (a)(7) of the Consolidated
                Farmers Home Administration Act of 1961, as amended (7 U.S.C.
                [United States Code] 1926).

     Public Law 108-7, “Consolidated Appropriations Resolution FY 2003,”
     section 638, February 20, 2003. Public Law 108-7 states:
                Not later than 6 months after the date of enactment of this Act, the
                Inspector General of each applicable department or agency shall submit
                to the Committee on Appropriations a report detailing what policies
                and procedures are in place for each department or agency to give first
                priority to the location of new offices and other facilities in rural areas,
                as directed by the Rural Development Act of 1972.

     DoD Directive 4165.6, “Real Property Acquisition, Management, and
     Disposal, September 1, 1987. DoD Directive 4165.6 requires that the Military
     Departments and Defense agencies determine which real property satisfies
     military requirements. The Directive requires that the Office of the Under
     Secretary of Defense for Acquisition, Technology, and Logistics [formerly the
     Assistant Secretary of Defense (Productions and Logistics)] establish DoD policy
     regarding acquisition, management, and disposal of real property.



                                                2
    Air Force Handbook 32-9007, “Managing Air Force Real Property,” May 1,
    1999. The Handbook states that when acquiring real property, the requesting
    activity must provide a statement acknowledging that the selected area is in
    compliance with the Rural Development Act of 1972.


DoD Policy and Procedures on the Rural Development Act
    DoD had established policies for implementing the requirements of the Rural
    Development Act of 1972. With the exception of the Air Force, however, DoD
    had not established procedures to specifically give first priority to the location of
    new offices and other facilities in rural areas.

    Office of the Secretary of Defense Policy and Procedures. On February 21,
    2003, the Office of the Deputy Under Secretary of Defense (Installations and
    Environment) issued a policy memorandum to the DoD Components in response
    to Inspector General of the Department of Defense (IG DoD) Report
    No. D-2002-089, “Department of Defense Policies and Procedures to Implement
    the Rural Development Act of 1972,” May 10, 2002. The purpose of the
    memorandum was to ensure that DoD Components are implementing the
    provisions of the Rural Development Act of 1972. However, DoD
    Directive 4165.6, the governing regulation on DoD real property acquisition, does
    not include procedures for implementing requirements of the Rural Development
    Act. Personnel from the Office of the Deputy Under Secretary of Defense
    (Installations and Environment) stated that they plan to revise DoD
    Directive 4165.6 and that revisions will include Rural Development Act
    requirements. Anticipated completion and publication of the revised Directive is
    December 2003.

    Military Department Policy and Procedures. During the audit, the Army and
    Navy also issued policy memorandums that reiterated the provisions of the Rural
    Development Act of 1972. However, Rural Development Act policy had not been
    incorporated into procedural requirements within Army and Navy regulations.
    Air Force policies and procedures complied with the requirements of the Rural
    Development Act of 1972 and were documented in Air Force Handbook 32-9007.

            Army. On March 21, 2003, the Office of the Assistant Secretary of the
    Army (Installations and Environment) issued a policy memorandum to ensure that
    the Rural Development Act of 1972 is implemented. However, Army
    Regulation 405-10, “Acquisition of Real Property and Interests Therein,”
    August 1, 1970, does not include procedures for implementing the requirements
    of the Rural Development Act of 1972. The Army had begun the process of
    revising Army Regulation 405-10 and provided a draft version, which included
    Rural Development Act requirements.

           Navy. On March 13, 2003, the Office of the Assistant Secretary of the
    Navy (Installations and Environment) issued a policy memorandum to ensure
    implementation of the Rural Development Act. However, Secretary of the Navy
    (SECNAV) Instruction 11011.47, “Acquisition, Use by Others and Disposal of
    Department of the Navy Real Property,” June 20, 1983, does not include


                                          3
    procedures for implementing requirements of the Rural Development Act
    of 1972. Personnel from the Office of the Assistant Secretary of the Navy
    (Installations and Environment) stated that SECNAV Instruction 11011.47 is
    under revision and will include Rural Development Act requirements. The Navy
    had begun the process of revising SECNAV Instruction 11011.47 and provided a
    draft version, which included Rural Development Act requirements.

            Air Force. Air Force Handbook 32-9007, “Managing Air Force Real
    Property,” May 1, 1999, addresses the requirements of the Rural Development
    Act of 1972. Specifically, the Handbook states that when acquiring real property,
    the requesting activity must provide a statement acknowledging the selected area
    is in compliance with the Rural Development Act of 1972.


Summary
    DoD had established policies for implementing the requirements of the Rural
    Development Act of 1972; however, with the exception of the Air Force, DoD
    had not established procedures that would specifically give first priority to the
    location of new offices and other facilities in rural areas. During the audit, Army
    and Navy regulations governing real property acquisition were under revision and
    included draft procedures for implementing Rural Development Act requirements.
    Therefore, we did not make recommendations to the Army and Navy. Revising
    DoD regulations that specifically reflect the requirements of the Rural
    Development Act of 1972 will result in additional assurance that the DoD meets
    the intent of the Act.


Recommendation and Management Comments
    We recommend the Deputy Under Secretary of Defense (Installations and
    Environment) revise DoD Directive 4165.6, “Real Property Acquisition,
    Management, and Disposal,” September 1, 1987, and incorporate the
    requirements of Public Law 92-419, “Rural Development Act,” section 601,
    August 30, 1972.

    Management Comments. The Principal Assistant Deputy Under Secretary of
    Defense (Installations and Environment) concurred with the recommendation,
    stating that they initiated a complete revision of DoD Directive 4165.6. The
    revision will incorporate the specific guidance contained in the February 21, 2003
    policy memorandum. Anticipated completion and publication of the revised
    Directive is December 2003.




                                         4
Appendix A. Scope and Methodology
    We reviewed documentation dated 1970 through 2003. To accomplish the audit
    objective, we:

       •   Reviewed applicable DoD and Military policies, procedures, and
           regulations to evaluate the requirements to the audit objective.

       •   Interviewed Office of the Secretary of Defense, Army, Navy, and Air
           Force personnel to determine whether action was being taken to meet the
           requirements of the Rural Development Act of 1972.

    We performed this audit from March 2003 through May 2003 in accordance with
    generally accepted government auditing standards.

    We did not review the management control program as it related to the overall
    objective because of time constraints associated with submitting the report within
    the congressionally mandated 6-month time frame.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Federal Real Property high-risk area.




                                         5
Prior Coverage
    During the last 5 years, the General Accounting Office and the IG DoD issued
    two reports related to DoD policies and procedures for implementing the Rural
    Development Act of 1972. Unrestricted General Accounting Office reports can
    be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports.


General Accounting Office
    General Accounting Office Report No. 01-805, “Facilities Location: Agencies
    Should Pay More Attention to Costs and Rural Development Act,” July 2001


IG DoD
    IG DoD Report No. D-2002-089, “Department of Defense Policies and
    Procedures to Implement the Rural Development Act of 1972,” May 10, 2002




                                       6
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations and Environment)*
Director, Defense Procurement and Acquisition Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                          7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        8
Office of the Deputy Under Secretary of Defense
(Installations and Environment) Comments




                       9
10
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Joseph P. Doyle
Deborah L. Carros
Rachel E. Perretta
Kelly B. Klakamp
Sharon L. Carvalho
